CERTIFICATE OF SERVICE
No. 20-450
Chad F. Wolf, et al.,
Petitioners,
v.
Cook County, et al.
Respondents.
I, Tacy F. Flint, do hereby certify that, on this twenty-eighth day of October,
2020, I caused one copy and an electronic copy of the letter requesting an extension
of time within which to file a response in the foregoing case to be served by first
class mail and email on the following parties:
JEFFREY B. WALL
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioners Chad F. Wolf, et al.
/s/ Tacy F. Flint
TACY F. FLINT
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000

